OL'fcN I •£$ COPy

if_,

IN THE COURT OF CRIMINAL APPEALS OF
THE STATE OF OKLAHOMA
ALEX WARREN KLINGER,

fh.£d

CP'WAL APPEALS
°F 0KUh°MA
SEP 1 7 2020

JOHN D. HADDEN
CLERK

)
)

Appellant,

)

NOT FOR PUBLICATION

)

v.

)

Case No. F-2019-243

)

THE STATE OF OKLAHOMA,

)
)

Appellee.

)

SUMMARY OPINION
ROWLAND, JUDGE:
Appellant Alex Warren Klinger was tried by a jury in the District
Court of Grady County, Case No. CF-2017-284,

and convicted of

three counts of Assault and Battery with Deadly Weapon, in violation
of 21 O.S.2011, § 652(C), six counts of Shooting with Intent to Kill,
in violation of 21 O.S.2011, § 652(A), and one count of Maiming, in
violation of 21 O.S.2011, § 751. The Honorable

Kory Kirkland,

District Judge, presided over Klinger’s jury trial and sentenced him,
m accordance with the jury’s verdicts, to life imprisonment on each

count.1 Judge Kirkland ordered the

sentences to be

served

consecutively. Klinger appeals raising the following issues:
( )

whether the State failed to introduce sufficient evidence to
overcome its burden of disproving beyond a reasonable
doubt his affirmative defense of justifiable
use of deadly
force in defense of habitation; and

(2)

whether his convictions for both assault and battery
with
a deadly weapon and maiming offended the
protections
against double punishment and double jeopardy.

We find relief iis not required and affirm the Judgment and
Sentence of the district court.
1.
Title 21 O.S.Supp.2014, § 733(A)(1) provides that homicide is
justifiable “[wjhen resisting any attempt to murder such

person, or

to commit any felony upon him c*1" upon or in any dwelling house in
which such person is[.J” To avail himself of this defense Klinger had
the burden at trial to show the following:
A person is justified in using deadly force when
resisting any attempt by another to commit a felony upon
or m any dwelling house in which that person is lawfully
present. Defense of habitation is a defense although the
anger that a felony would be committed upon or in the
Under 21 O.S.Supp.2014, § 13.1, Klinger must serve 85% of his sentence of
6nt >IhlS convlctions on assault and battery with a deadly weapon
and shooting with intent to kill, before he is eligible for parole considerate
2

dwelling house may not have been real, if a reasonable
person, in the circumstances and from the viewpoint of the
defendant, would reasonably have believed that there was
an imminent danger that such felony would occur.
OUJI-CR(2d) 8-14.
After a defendant presents enough evidence to raise the claim
of defense of habitation, the State must disprove it beyond a
reasonable doubt. Cf. Robinson v. State, 2011 OK CR 15,

17, 255

P.3d 425, 432 (Once a defendant presents enough evidence to raise
the claim of self-defense, the State must disprove it beyond a
reasonable doubt.). We presume that the trier of fact resolved any
conflicts in the evidence in favor of the prosecution. Id. (citing
McDaniel v. Brown, 558 U.S. 120, 132-33 (2010)). In the present case,
the trial court found that Klinger presented sufficient evidence to
raise the claim and the jury was instructed accordingly. The jury did
not find that Klinger was justified in using deadly force in defense of
habitation and he argues on appeal that the State’s evidence was
insufficient to disprove his defense of defense of habitation beyond a
reasonable doubt.
While the evidence presented at trial was conflicting, there was
substantial evidence disproving Klinger’s claim that he acted
3

justifiably in defense of habitation. This evidence refuted Klinger’s
assertion that he did not know that the people attempting to enter
his house were the police and that he reasonably believed that there
was an imminent danger that a felony would occur upon or in his
dwelling because people attempting to enter his house were there to
do him harm. From the evidence presented at trial, the juiy could
have found beyond a reasonable doubt that Klinger did not shoot at
the police in defense of habitation upon the reasonable belief that
intruders were attempting to commit a felony upon or in his house.
This proposition is without merit.
2.

Klinger complains his convictions for assault and battery with
a deadly weapon (Count 1) and maiming (Count 11) violate the
statutory prohibition against double punishment and the state and
federal constitutional prohibitions against double jeopardy. He
argues both convictions arose from a single act of violence against a
single victim. Klinger filed a pretrial motion to dismiss either Count
1 or Count 11 on these grounds and, after this motion was denied,
he objected again at trial. Accordingly, we review the trial court’s
4

ruling for an abuse of discretion. Sanders v. State, 2015 OK CR 11,
If 4, 358 P.3d 280, 283.
Title 21 O.S.2011, § 11 governs multiple punishments for a
single criminal act and provides in relevant part that:
[A]n act or omission which is made punishable in
different ways by different provisions of this title may be
punished under any of such provisions, . . . but in no case
can a criminal act or omission be punished under more
than one section of law; and an acquittal or conviction and
sentence under one section of law, bars the prosecution
for the same act or omission under any other section of
law.
A Section 11 analysis focuses on the relationship between the
crimes. Barnard u. State, 2012 OK CR 15, | 27, 290 P.3d 759, 767.
“If the offenses at issue are separate and distinct, requiring dissimilar
proof, Oklahoma’s statutory ban on ‘double punishment’ is not
violated.” Sanders, 2015 OK CR 11, ^f 6, 358 P.3d at 283. However,
“[i]f the crimes truly arise out of one act, Section 11 prohibits
prosecution for more than one crime, absent express legislative
intent.” Barnard, 2012 OK CR 15, If 27, 290 P.3d at 767. Under the
fact of this case, we find that the trial court’s ruling was not an abuse
of discretion.

5

Finding no violation of Section 11 we conduct a traditional
double jeopardy analysis. See Logsdon v. State, 2010 OK CR 7, If 19,
231 P.3d 1156, 1165; Head v. State, 2006 OK CR 44, f 15, 146 P.3d
1141, 1146. This Court applies the test set out in Blockburger v.
United States, 284 U.S. 299, 304, (1932), to evaluate constitutional
claims of double jeopardy. Watts v. State, 2008 OK CR 27, ^ 16, 194
P.3d 133, 139. Under the Blockburger test, this Court asks whether
each offense requires proof of an additional fact that the other does
not. Watts, 2008 OK CR 27, | 16, 194 P.3d at 139. The elements test
is easily met in this case because Klinger’s conviction for maiming
requires elements different from the crime of assault and battery with
a deadly weapon. See 21 O.S.2011, § 652(C); 21 O.S.2011, § 751. As
his convictions are based upon crimes that are separate and distinct
requiring dissimilar proof, there is no constitutional double jeopardy
violation here. Relief is not required.
DECISION
The Judgment and Sentence of the district court is AFFIRMED.
Pursuant to Rule 3.15, Buies of the Oklahoma Court of Criminal

6

Appeals, Title 22, Ch. 18, App. (2020), the MANDATE is ORDERED
issued upon delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF GRADY COUNTY
THE HONORABLE KORY KIRKLAND, DISTRICT JUDGE
APPEARANCES AT TRIAL

APPEARANCES ON APPEAL

JOHN F. MARTINO
512 NW 12th STREET
OKLAHOMA CITY, OK 73103
KYLE B. WATSON
1213 CLASSEN BLVD
OKLAHOMA CITY, OK 73106
COUNSEL FOR DEFENDANT

RICKI J. WALTERSCHEID
APPELLATE DEFENSE
COUNSEL
P.O. BOX 926
NORMAN, OK 73070
COUNSEL FOR APPELLANT

JASON HICKS
DISTRICT ATTORNEY
KARA BACON
ASST. DISTRICT ATTORNEY
217 N. THIRD STREET
CHICKASHA, OK 73018
COUNSEL FOR STATE

MIKE HUNTER
ATTORNEY GENERAL
OF OKLAHOMA
JULIE PITTMAN
ASSISTANT ATTORNEY
GENERAL
313 N.E. 21st STREET
OKLAHOMA CITY, OK 73105
COUNSEL FOR APPELLEE

OPINION BY: ROWLAND, J.
LEWIS, P.J.:
Concur in Results
KUEHN, V.P.J.: Concur
LUMPKIN, J.: Concur
HUDSON, J.: Concur

7

